December 29, 2020
Via E-Filing and U.S. Mail
Scott S. Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, DC 20543
Re:

Kiernan Wholean, et al., v. CSEA SEIU Local 2001, et al., No. 20-605

Dear Mr. Harris:
On behalf of Respondent CSEA SEIU Local 2001, I respectfully move for a 30-day
extension of time, until February 22, 2021, to submit a response to the petition for certiorari in
this matter. This request is being made because the Court issued a request for a response in this
matter on December 23, 2020, and I had already scheduled time off at the end of the year and
postponed work in several other pending matters until January 2021. Counsel for the other
Respondents support this request for an extension. Counsel for Petitioners has confirmed that
Petitioners do not oppose the requested extension.
By copy of this letter, I am serving counsel for all parties by e-mail and U.S. mail.
Sincerely,
Scott A. Kronland
Scott A. Kronland
cc:

Jeffrey Daniel Jennings, National Right to work Legal Defense Foundation
8001 Braddock Road, Springfield, VA 22160; jdj@nrtw.org
Clare E. Kindall, Office of the Attorney General, State of Connecticut
165 Capitol Avenue, Hartford, CT 06106; Clare.Kindall@ct.gov

